No. 20-5166

IN THE

Supreme Court of the United States
J.J.H.,
Petitioner,
v.
WAUKESHA COUNTY, WISCONSIN
Respondent.

On Petition for a Writ of Certiorari
to the Court of Appeals of Wisconsin

PROOF OF SERVICE

I, Colleen D. Ball, hereby declare that on this date,
September 1st, 2020, I caused an original and ten copies
of J.J.H.’s Reply Brief for Petitioner to be filed with the
United States Supreme Court by depositing them with
the United States Postal Service, properly addressed and
first-class postage prepaid, to the Clerk, United States
Supreme Court, 1 First Street, N.E., Washington, D.C.
20543.
I further declare that all parties required to be
served with copies of these documents have been served.
Specifically, I served a copy of the Reply Brief for
Petitioner upon the following counsel on September 1st,
2020, by depositing the copies with the United States
Postal Service, properly addressed and first-class postage
prepaid:

Attorney Samuel C. Hall, Jr.
Counsel for Waukesha County
Crivello Carlson, S.C.
710 N. Plankinton Ave., Suite 500
Milwaukee, WI 53203
Attorney Gabriel K. Gillett
Counsel for National Association of the Deaf
and Disability Rights Wisconsin
Jenner & Block LLP
353 N. Clark St.
Chicago, IL 60654
Also on September 1st, 2020, I transmitted an
electronic version of these documents to the foregoing
counsel.
I declare under penalty of perjury that the
foregoing is true and correct.
Dated this 1st day of September, 2020.

/s/ Colleen D. Ball
Colleen D. Ball
Assistant State Public Defender
Counsel of Record
WISCONSIN STATE
PUBLIC DEFENDER
735 N. Water Street, Suite 912
Milwaukee, WI 53202-4116
(414) 227-4805
ballc@opd.wi.gov

